                             Hospital Closures: 1990 - 1999




                                     OEI-04-02-00180


Prepared by: Office of Inspector General                      December 2001
             Office of Evaluation and Inspections
             Atlanta Regional Office
        December 11, 2001


        Jesse Kerns

        Policy Analyst

        MedPAC

        1730 K. Street, Suite 800

        Washington, DC 20008


        Dear Mr. Kerns:


        This report responds to your request for information on the closure, opening, and reopening

        of hospitals in the United States during the 1990's.


        For the past thirteen years, the Office of Inspector General (OIG) has released reports

        describing the extent, characteristics, reasons for, and impact of hospital closures in the

        United States. The hospital closure reports focused on general, short-term, acute inpatient

        care hospitals.


        We analyzed trend data on hospital closures, openings, and reopenings from 1990 through

        1999. Based on our analysis, the United States ended the 1990's with 340 fewer general,

        short term, acute care hospitals than when the decade began. In total, 440 hospitals closed,

        78 hospitals opened, and 22 previously closed hospitals reopened. Fifty-eight percent (254)

        of the hospitals that closed were located in urban communities. The remaining 42 percent

        (186) were located in rural communities.


        The following pages details our study methodology and findings.


        I hope this information is helpful in meeting your needs. If you have any questions, please

        do not hesitate to contact me or Graham Rawsthorn at 404-562-7723.


        Sincerely,




        Jesse J. Flowers
        Regional Inspector General for
         Evaluation and Inspections




Hospital Closures: 1990 - 1999               Page 1 of 4                                 OEI-04-02-00180
METHODOLOGY

We analyzed 10 years of data that we collected as part of our annual tracking of hospital closures,
openings, and reopenings throughout the United States.

We used the Centers for Medicare & Medicaid Services’ (CMS) Hospital Cost Report
Information System (HCRIS) data to identify general, short-term, acute inpatient care hospitals.
We further analyzed the HCRIS data to determine if hospitals that closed were located in urban or
rural communities. To verify the status of hospitals, we obtained information from State licensing
and certification agencies, State health planning agencies, State hospital associations, local public
officials, and officials associated with closed hospitals or nearby hospitals.

We considered a hospital closed only if it stopped providing general, short-term, acute inpatient
care for the calendar year of study. We did not consider a hospital closed if it:

          !          Merged with or was sold to another hospital but the physical plant continued to
                     provide inpatient acute care,
          !          Converted to a critical access status, or
          !          Both closed and reopened in the same calendar year and physical plant.

HOSPITAL CLOSURES

The number of hospital closures were generally low throughout the 1990's. The lowest number of
closures occurred in 1994 as shown in the following table.

                                       HOSPITAL CLOSURES: 1990 - 1999
                                  Calendar
                                    Year      Rural    Urban        Total
                                 1990               28       28           56
                                 1991               36       21           57
                                 1992               26       24           50
                                 1993               22       20           42
                                 1994                5       11           16
                                 1995               13       24           37
                                 1996               10       27           37
                                 1997               10       28           38
                                 1998               15       28           43
                                 1999               21       43           64
                                 1990-1999        186      254          440
                                 Percent of      42%      58%
                                 Closures




Hospital Closures: 1990 - 1999                   Page 2 of 4                               OEI-04-02-00180
Our data shows that hospital closures were generally proportionate to the rural/urban dispersion
of hospitals. To illustrate, 45 percent of the nation’s hospitals were located in rural communities.
Over the past decade, rural communities accounted for 42 percent of hospital closures. Likewise,
55 percent of the nation’s hospitals were located in urban communities and they accounted for 58
percent of hospital closures.

HOSPITAL OPENINGS AND REOPENINGS

During the 1990's, hospital openings and reopenings fluctuated. On average, eight hospitals
opened or reopened each year from 1990 through 1997. However, during 1998 and 1999, we
found a substantial increase in the number of hospitals that opened or reopened. The average for
the last two years of the decade was 18 hospitals. As shown in the following table, 100 hospitals
either opened or reopened from 1990 through 1999.

                                   HOSPITAL OPENINGS AND REOPENINGS:
                                               1990 - 1999
                                 Calendar
                                  Year      Openings       Reopenings   Total
                             1990                      7            2            9
                             1991                      8            1            9
                             1992                      7            0            7
                             1993                      8            5           13
                             1994                      6            7           13
                             1995                      4            1            5
                             1996                      4            1            5
                             1997                      2            1            3
                             1998                  12               2           14
                             1999                  20               2           22
                             1990-1999             78              22       100


NET EFFECT OF CLOSURES, OPENINGS, AND REOPENINGS

The United States ended the 1990's with 340 fewer hospitals than when the decade began. As
shown in the following table, the most (net) closures came early in the decade. The fewest
number (net) of closures was in 1994 -- three hospitals closed.



Hospital Closures: 1990 - 1999                   Page 3 of 4                            OEI-04-02-00180
                    NET EFFECT OF CLOSURES, OPENINGS, AND REOPENINGS:
                                        1990 - 1999
                    Calendar                                                              Net
                     Year                  Close             Open          Reopen       Closures
                  1990                             56                 7             2          47
                  1991                             57                 8             1          48
                  1992                             50                 7             0          43
                  1993                             42                 8             5          29
                  1994                             16                 6             7              3
                  1995                             37                 4             1          32
                  1996                             37                 4             1          32
                  1997                             38                 2             1          35
                  1998                             43               12              2          29
                  1999                             64               20              2          42
                  1990-1999                     440                 78            22          340


Beginning in 1998, we tracked whether hospitals that opened or reopened were located in rural or
urban communities. The following table shows the net effect of closures, openings, and
reopenings by rural and urban communities.

                NET EFFECT ON RURAL AND URBAN COMMUNITIES: 1998 - 1999
                                 Closure                Opening             Reopening        Net Closures
   Calendar
    Year                Rural         Urban        Rural      Urban       Rural     Urban   Rural          Urban
 1998                            15        28            3           9        1         1          11            18
 1999                            21        43            6          14        0         2          15            27
 1998-1999                       36        71            9          23        1         3          26            45




Hospital Closures: 1990 - 1999                           Page 4 of 4                                   OEI-04-02-00180
